     Department of Homeland Security

     ��������������������������


 Information Technology Management Letter for the 

United States Coast Guard Component of the FY 2013 

         Department of Homeland Security’s 

              Financial Statement Audit 





OIG-14-88                                  May 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                     May 2, 2014 
                                             
MEMORANDUM FOR:	             Rear Admiral Robert Day 
                             Chief Information Officer 
                             United States Coast Guard 
 
                             Rear Admiral Stephen P. Metruck  
                             Chief Finan cial Officer 
                             United States Coast Guard 
 
FROM:
                       Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:	                    Information Technology Management Letter for the United 
                             States Coast Guard Component of the FY 2013 Department 
                             of Homeland Security’s Financial Statement Audit 
 
Attached for your information is our final report, Information Technology Management 
Letter for the United States Coast Guard Component of the FY 2013 Department of 
Homeland Security’s Financial Statement Audit. This report contains comments and 
recommendations related to information technology internal control deficiencies that 
were not required to be reported in the Independent Auditors’ Report.   
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year 2013 consolidated 
financial statements. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
                               
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General,
U.S. Department of Homeland Security, and

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security United States Coast Guard

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards issued by the American Institute of
Certified Public Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the U.S. Coast Guard (USCG or Coast Guard).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to Coast Guard’s financial systems’ IT controls, we noted certain matters in the areas of
security management, access controls, and configuration management. These matters are described in
the General IT Control Findings and Recommendations section of this letter.

The Table of Contents identifies each section of the letter. We have provided a description of key
Coast Guard financial systems and IT infrastructure within the scope of the FY 2013 DHS financial
statement audit in Appendix A, and a listing of each IT NFR communicated to management during our
audit in Appendix B.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
During our audit we noted certain matters involving financial reporting internal controls (comments
not related to IT) and other operational matters, including certain deficiencies in internal control that
we consider to be significant deficiencies and material weaknesses, and communicated them in writing
to management and those charged with governance in our Independent Auditors’ Report and in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                  Department of Homeland Security
                             Information Technology Management Letter
                                          U.S. Coast Guard
                                        September 30, 2013


                                    TABLE OF CONTENTS

                                                                                           Page
Objective, Scope, and Approach                                                              2

Summary of Findings                                                                         4

General IT Control Findings and Recommendations                                             5

   Findings                                                                                 5

       Security Management                                                                  5

       Access Controls                                                                      5

       Configuration Management                                                             6

   Recommendations                                                                          6

       Security Management                                                                  6

       Access Controls                                                                      6

       Configuration Management                                                             7

IT Application Controls                                                                     7


                                          APPENDICES

Appendix                                     Subject                                       Page
           Description of Key Coast Guard Financial Systems and IT Infrastructure within    8
   A
           the Scope of the FY 2013 DHS Financial Statement Audit 

   B       FY 2013 IT Notices of Findings and Recommendations at Coast Guard                11





                                                 1

                                    Department of Homeland Security
                               Information Technology Management Letter
                                            U.S. Coast Guard
                                          September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at the U.S. Coast Guard (USCG or Coast Guard) to assist in planning and performing our audit
engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key Coast Guard financial systems and IT infrastructure within the scope of the Coast
Guard component of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

	 Security Management – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   	 In conjunction with our test work of security management GITCs, limited after-hours physical
      security testing and social engineering at select Coast Guard facilities was conducted to identify
      potential control deficiencies in non-technical aspects of IT security.

	 Access Control – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

	 Configuration Management – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.


                                                    2

                                    Department of Homeland Security
                               Information Technology Management Letter
                                            U.S. Coast Guard
                                          September 30, 2013


   	 We performed technical information security testing for key Coast Guard network and system
      devices. The technical security testing was performed from within select DHS facilities and
      focused on production devices that directly support DHS’ and Coast Guard’s financial processing
      and key general support systems.

	 Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
   to manage who can control key aspects of computer-related operations.

	 Contingency Planning – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                    Department of Homeland Security
                               Information Technology Management Letter
                                            U.S. Coast Guard
                                          September 30, 2013


                                      SUMMARY OF FINDINGS

During FY 2012, Coast Guard took corrective action to address certain prior year IT control deficiencies.
For example, Coast Guard made improvements over designing and implementing certain logical access,
physical access, and configuration management controls, including controls relative to the scripting
process, over Coast Guard information systems. However, during FY 2013, we continued to identify
GITC deficiencies related to controls over security management (including deficiencies over physical
security and security awareness), access control, and configuration management for Coast Guard core
financial and feeder systems and associated General Support System environments.

Collectively, the IT control deficiencies limited Coast Guard’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these deficiencies negatively impacted Coast Guard’s internal controls over financial reporting
and its operations. We consider these deficiencies, in aggregate, to contribute to the IT material weakness
at the Department level under standards established by the American Institute of Certified Public
Accountants. In addition, based upon the results of our test work, we noted that Coast Guard contributes
to the Department’s non-compliance with the relevant federal financial management systems
requirements of the Federal Financial Management Improvement Act of 1996.

Of the eight IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing,
seven were repeat findings, either partially or in whole from the prior year, and one was a new finding.
The eight IT NFRs issued represent deficiencies in three of the five FISCAM GITC categories.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology guidance. Specifically, the findings stem from:

    1. Inadequately designed and ineffective access control policies and procedures relating to the
       management of logical access to financial applications, databases, and support systems;
    2. Insufficient logging of system events and monitoring of audit logs; and
    3. Patch, configuration, and vulnerability management control deficiencies within systems.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and Coast Guard financial data could be exploited, thereby compromising the integrity of Coast
Guard financial data used by management and reported in Coast Guard’s and DHS’ financial statements.

While the recommendations made by us should be considered by Coast Guard, it is the ultimate
responsibility of Coast Guard management to determine the most appropriate method(s) for addressing
the deficiencies identified.




                                                     4

                                   Department of Homeland Security
                              Information Technology Management Letter
                                           U.S. Coast Guard
                                         September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Findings

During our audit of the FY 2013 DHS financial statements, we identified the following Coast Guard
GITC deficiencies that, in the aggregate, contribute to the IT material weakness at the Department level.

Security Management

After-Hours Physical Security Testing

On June 20, July 15, July 18, and August 16, 2013, we performed after-hours physical security testing to
identify risks related to non-technical aspects of IT security. These non-technical IT security aspects
included physical access to printed or electronic media, equipment, or credentials residing within a Coast
Guard employee’s or contractor’s work area or shared workspaces which could be used by others to gain
unauthorized access to systems housing financial or other sensitive information. The testing was
performed at various USCG locations in Baltimore, Maryland; Martinsburg, West Virginia (WV);
Elizabeth City, North Carolina (NC); and Chesapeake, Virginia (VA) that process, maintain, and/or have
access to financial data.

We observed 52 instances where passwords, keys, unsecured or unlocked credentials and external media,
and printed materials marked “For Official Use Only” or containing sensitive Personally Identifiable
Information were accessible by individuals without a “need to know”.

Social Engineering

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

On July 11, 2013, we performed social engineering testing from a DHS facility to identify risks related to
Coast Guard personnel awareness of responsibilities for protecting sensitive IT information, including
personal system access credentials, from disclosure to unauthorized personnel. We noted two instances
where individuals divulged their Naval and Electronics Supply Support System (NESSS) application
account password to KPMG auditors.

Access Controls

	 Controls to notify Coast Guard system owners of separated or transferred military and civilian
   personnel and contractors and to generate reports of separated or transferred individuals to support
   periodic reviews of system access were not implemented.

	 Controls to generate, and perform and document independent reviews of, required audit records of
   events on the Direct Access system were not implemented.


                                                    5

                                   Department of Homeland Security
                              Information Technology Management Letter
                                           U.S. Coast Guard
                                         September 30, 2013


	 Account management activities on Coast Guard financial systems (including Direct Access, Joint
   Uniform Military Pay System [JUMPS], and NESSS), including periodic recertification of access,
   were not consistently or timely documented or implemented in accordance with DHS and Coast
   Guard policy.

Configuration Management

	 Password, security patch management, and configuration deficiencies were identified during the
   vulnerability assessment on hosts supporting USCG financial systems hosted at the Coast Guard
   Finance Center (FINCEN), Operations Systems Center (OSC), and Aviation Logistics Center (ALC).

Recommendations

We recommend that the Coast Guard Office of the Chief Information Officer (OCIO) and Office of the
Chief Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, make the
following improvements to Coast Guard‘s financial management systems and associated IT security
program.

Security Management

	 Continue to improve training with respect to IT security policies and procedures related to properly
   securing sensitive DHS and Coast Guard data within physical workspaces and protecting personal
   system access credentials from disclosure to unauthorized personnel, and perform periodic physical
   workspace audits and internal social engineering testing to re-enforce training principles.

Access Controls

	 Complete efforts to document and implement enterprise-wide processes to ensure that system owners
   are notified and revoke access from separated or transferred military and civilian personnel and
   contractors timely in accordance with Coast Guard and DHS requirements.

	 Implement monitoring controls over the Direct Access audit log generation and review process to
   ensure that logs are properly configured and secured from unauthorized modification, reviews are
   performed independently (with respect to segregation of duties principles) and evidence of audit log
   reviews is retained.

	 Implement monitoring controls over the account management process to ensure that all users of Coast
   Guard systems are periodically revalidated in accordance with CBP and DHS requirements. If
   necessary and justified by operational and business requirements, ensure that documented requests for
   exceptions from DHS requirements for periodic account recertification follow established processes
   for DHS exceptions.




                                                   6

                                  Department of Homeland Security
                             Information Technology Management Letter
                                          U.S. Coast Guard
                                        September 30, 2013


Configuration Management

	 Implement the specific vendor-recommended corrective actions detailed in the NFRs that were issued
   for deficiencies identified during our vulnerability assessment.


                                 IT APPLICATION CONTROLS

We conducted testing over certain Core Accounting System (CAS), Financial Procurement Desktop
(FPD), JUMPS, Direct Access, NESSS, and Aviation Logistics Management Information System
(ALMIS) application controls supporting in-scope processes during the Coast Guard component of the
FY 2013 DHS financial statement audit and did not identify any control deficiencies.




                                                 7

                     Department of Homeland Security
                Information Technology Management Letter
                             U.S. Coast Guard
                           September 30, 2013




                           Appendix A 

  Description of Key Coast Guard Financial Systems and IT 

Infrastructure within the Scope of the FY 2013 DHS Financial 

                       Statement Audit 





                                   8

                                                                                                Appendix A

                                     Department of Homeland Security
                                Information Technology Management Letter
                                             U.S. Coast Guard
                                           September 30, 2013


Below is a description of significant Coast Guard financial management systems and supporting IT
infrastructure included in the scope of the Coast Guard component of the DHS FY 2013 financial
statement audit.

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for the Coast Guard. CAS is hosted at FINCEN in VA. CAS interfaces with FPD, also located at
FINCEN. CAS is used by financial management individuals as CAS is the main system of record for
financial information. CAS has a Hewlett-Packard (HP) UNIX operating system with an Oracle database,
and the organizations responsible for CAS are FINCEN, Coast Guard OCFO, and Coast Guard OCIO.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the
CAS system and is located at the FINCEN in VA, and has an HP UNIX operating system and Oracle
database. The organizations responsible for CAS are FINCEN, Coast Guard OCFO, and Coast Guard
OCIO.

Joint Uniform Military Pay System (JUMPS)

JUMPS is an IBM zOS mainframe application and database that is used for paying USCG active and
reserve payroll and is mainly used by Pay and Personnel Center (PPC) employees. JUMPS is located at
the Burlington Northern Santa Fe data center in Kansas. The responsible organization for JUMPS is PPC,
which falls under the purview of the Coast Guard OCIO.

Direct Access

Direct Access is the system of record for all functionality, data entry, and processing of payroll events for
the Coast Guard. Every Coast Guard employee is a user of the system. Employees may use Direct Access
to correct their own personal information, such as address and beneficiaries. The main financial users use
Direct Access to process payroll events and change personnel records such as pay scales. Up until June
2013, Direct Access was maintained by IBM Application On Demand (IBM AOD) in the iStructure data
center facility in Arizona (AZ) with an automated backup site located in a Qwest data center in VA.
Starting in June 2013, Direct Access is maintained by Addx Corporation and is located in VA. Direct
Access is a PeopleSoft application residing on servers operating the Solaris and Windows Server 2000
operating systems and is supported by an Oracle database. The responsible organization for Direct Access
is the Coast Guard OCIO.

Global Pay (Direct Access II)

Global Pay provides retiree and annuitant support services. Until June 2013, Global Pay was maintained
by IBM AOD in the iStructure data center facility in AZ with an automated backup site located in a

                                                     9

                                                                                           Appendix A

                                  Department of Homeland Security
                             Information Technology Management Letter
                                          U.S. Coast Guard
                                        September 30, 2013


Qwest data center in VA. Starting in June 2013, Global Pay is maintained by Addx Corporation and is
located in VA. Global Pay is a PeopleSoft application residing on servers operating the IBM xSeries
operating system and is supported by an Oracle database. The responsible organization for Global Pay is
the Coast Guard OCIO.

Naval and Electronics Supply Support System (NESSS)

NESSS is one of four automated information systems that comprise the family of Coast Guard logistics
systems. NESSS is a fully integrated system linking the functions of provisioning and cataloging, unit
configuration, supply and inventory control, procurement, depot-level maintenance and property
accountability, and a full financial general ledger. NESSS is used by both financial and logistics
personnel across numerous Coast Guard locations. NESSS is located at the OSC in WV, resides on
servers operating the Microsoft Windows 2003 and HP/UNIX operating systems, and is supported by an
Oracle database. The responsible organizations for NESSS are the Office of Logistics Program
Management and OSC, which act under the purview of the Coast Guard OCIO.

Aviation Logistics Management Information System (ALMIS)

ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning, Aircraft &
Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance Management
Information System, a subcomponent of ALMIS, functions as the inventory management/fiscal
accounting component of the ALMIS application. The Aircraft Repair & Supply Center Information
Systems Division in NC hosts the ALMIS application. ALMIS is used by both financial and logistics
personnel across numerous Coast Guard locations. ALMIS is located at the ALC in NC and has a HP
UNIX operating system and a Haley database. The responsible organization for ALMIS is ALC.




                                                  10

                     Department of Homeland Security
                Information Technology Management Letter
                             U.S. Coast Guard
                           September 30, 2013




                           Appendix B 

FY 2013 IT Notices of Findings and Recommendations at Coast 

                           Guard





                                  11

                                                                                                                                       Appendix B

                                                      Department of Homeland Security
                                                 Information Technology Management Letter
                                                              U.S. Coast Guard
                                                            September 30, 2013


FY 2013 NFR #                                        NFR Title                                          FISCAM Control Area       New     Repeat
                                                                                                                                  Issue    Issue
 CG-IT-13-01    Lack of Consistent Contractor, Civilian, and Military Account Termination                  Access Controls                  X
                Notification Process for Coast Guard Systems
 CG-IT-13-02    Weakness in Direct Access Audit Logs and Segregation of Duties                             Access Controls                  X
 CG-IT-13-03    Weakness in Direct Access Annual User Recertification                                      Access Controls                  X
 CG-IT-13-04    Security Awareness Issues Identified During Social Engineering Testing at Surface        Security Management                X
                Forces Logistics Center
 CG-IT-13-05    Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                X
                the Surface Forces Logistics Center, OSC, ALC, and FINCEN
 CG-IT-13-06    Access and Configuration Management Controls - Vulnerability Assessment                Configuration Management             X
 CG-IT-13-07    Weakness in JUMPS Annual User Recertification                                              Access Controls         X
 CG-IT-13-08    Weakness in NESSS Annual User Recertification                                              Access Controls                  X




                                                                        12

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-14-88
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
